HHS/OIG, Audit - "Follow-up Review of the Medicaid Drug Rebate Program in
Wisconsin," (A-05-08-00012)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Follow-up Review of the Medicaid
Drug Rebate Program in Wisconsin," (A-05-08-00012)
March 24, 2008
Complete
Text of Report is available in PDF format (221 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The State
agency implemented the recommendations from our prior audit that related to
reconciling the outstanding rebate balance reported on the CMS-64.9R and
implementing controls to account for interest related to rebate payments.
Additionally, the State agency established controls over collecting rebates on
single-source drugs administered by physicians.  Therefore, we do not offer any
recommendations.